      Department of Homeland Security


            Information Technology Management
             Letter for the Transportation Security
              Administration Component of the
            FY 2011 DHS Financial Statement Audit




OIG-12-47                                         March 2012
                                                                    Office of Inspector General

                                                                    U.S. Depar tment of Homeland
                                                                    Security
                                                                    Washington, DC 20528




                                       March 9, 2012

                                           Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to
the Inspector General Act of 1978. This is one of a series of audit, inspection, and special
reports prepared as part of our oversight responsibilities to promote economy, efficiency,
and effectiveness within the Department.

This report presents the information technology (IT) management letter for the
Transportation Security Administration (TSA) component of the fiscal year (FY) 2011
DHS consolidated financial statement audit as of September 30, 2011. It contains
observations and recommendations related to information technology internal control
weaknesses that were summarized in the Independent Auditors’ Report dated November 11,
2011 and presents the separate restricted distribution report mentioned in that report. The
independent accounting firm KPMG LLP (KPMG) performed the audit procedures at the
TSA component in support of the DHS FY 2011 consolidated financial statement audit and
prepared this IT management letter. KPMG is responsible for the attached IT management
letter and the conclusions expressed in it. We do not express opinions on DHS’ financial
statements or internal control or conclusion on compliance with laws and regulations.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed with those responsible for implementation. We trust that
this report will result in more effective, efficient, and economical operations. We express
our appreciation to all of those who contributed to the preparation of this report.



                                      Frank Deffer
                                      Assistant Inspector General
                                      Office of Information Technology
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006
February 16, 2012

Acting Inspector General
U.S. Department of Homeland Security

Chief Information Officer and
Chief Financial Officer
Transportation Security Administration
We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or
Department) as of September 30, 2011 and the related statement of custodial activity for the year
then ended (referred to herein as the “fiscal year (FY) 2011 financial statements”). The objective
of our audit was to express an opinion on the fair presentation of these financial statements. We
were also engaged to examine the Department’s internal control over financial reporting of the
balance sheet as of September 30, 2011, and statement of custodial activity for the year then
ended, based on the criteria established in Office of Management and Budget, Circular No. A-123,
Management’s Responsibility for Internal Control, Appendix A. In connection with our audit, we
also considered DHS’ compliance with certain provisions of applicable laws, regulations,
contracts, and grant agreements that could have a direct and material effect on the FY 2011
financial statements.
Our Independent Auditors’ Report issued on November 11, 2011, describes a limitation on the
scope of our audit that prevented us from performing all procedures necessary to express an
unqualified opinion on DHS’ FY 2011 financial statements and internal control over financial
reporting. In addition, the FY 2011 DHS Secretary’s Assurance Statement states that the
Department was unable to provide assurance that internal control over financial reporting was
operating effectively at September 30, 2011.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent,
or detect and correct misstatements on a timely basis. A material weakness is a deficiency, or
combination of deficiencies, in internal control such that there is a reasonable possibility that a
material misstatement of the entity’s financial statements will not be prevented, or detected and
corrected on a timely basis. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough to
merit attention by those charged with governance. In accordance with Government Auditing
Standards, our Independent Auditors’ Report, dated November 11, 2011, included internal control
deficiencies identified during our audit, that individually, or in aggregate, represented a material
weakness or a significant deficiency. This letter represents the separate limited distribution report
mentioned in that report.
During our audit engagement, we noted certain matters in the areas of access controls, configuration
management, security management, contingency planning, and segregation of duties with respect to
DHS’ financial systems general Information Technology (IT) controls which we believe contribute
to a DHS-level significant deficiency that is considered a material weakness in IT controls and
financial system functionality. We also noted that in some cases, financial system functionality is
inhibiting DHS’ ability to implement and maintain internal controls, notably IT applications
controls supporting financial data processing and reporting. These matters are described in the
General IT Control Findings and Recommendations section of this letter.



                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Although not considered to be a material weakness, we also noted certain other items during our
audit engagement which we would like to bring to your attention. These matters are also described
in the General IT Control Findings and Recommendations section of this letter.
The material weakness and other comments described herein have been discussed with the
appropriate members of management, or communicated through a Notice of Finding and
Recommendation (NFR), and are intended For Official Use Only. We aim to use our knowledge of
DHS’ organization gained during our audit engagement to make comments and suggestions that we
hope will be useful to you. We have not considered internal control since the date of our
Independent Auditors’ Report.
The Table of Contents on the next page identifies each section of the letter. We have provided a
description of key DHS financial systems within the scope of the FY 2011 DHS financial statement
audit engagement in Appendix A; a description of each internal control finding in Appendix B; and
the current status of the prior year NFRs in Appendix C. Our comments related to financial
management and reporting internal controls (comments not related to IT) have been presented in a
separate letter to the Office of Inspector General and the DHS Chief Financial Officer.

This report is intended solely for the information and use of DHS management, DHS Office of
Inspector General (OIG), U.S. Office of Management and Budget (OMB), U.S. Government
Accountability Office (GAO), and the U.S. Congress, and is not intended to be and should not be
used by anyone other than these specified parties.


Very truly yours,
                                     Department of Homeland Security

                                  Transportation Security Administration

                                 Information Technology Management Letter
                                            September 30, 2011

                   INFORMATION TECHNOLOGY MANAGEMENT LETTER


                                          TABLE OF CONTENTS


                                                                                                     Page
 Objective, Scope, and Approach                                                                        1

 Summary of Findings and Recommendations                                                                  2

 General IT Control Findings and Recommendations                                                          3

 Related to IT Controls                                                                                   3

       Configuration Management                                                                           3

       Access Control                                                                                     3

       Security Management                                                                                4

           After-Hours Physical Security Testing                                                          4

           Social Engineering Testing                                                                     4

 Related to Financial System Functionality                                                                5

 Application Controls                                                                                     7


                                               APPENDICES
Appendix                                          Subject                                           Page
   A       Description of Key TSA Financial Systems within the Scope of the FY 2011 DHS Financial    8
           Statement Audit

   B       FY 2011 Notices of IT Findings and Recommendations at TSA                                 10

               •   Notice of Findings and Recommendations – Definition of Severity Ratings           11

   C       Status of Prior Year Notices of Findings and Recommendations and Comparison to Current    13
           Year Notices of Findings and Recommendations at TSA
   D       Report Distribution                                                                       15




    Information Technology Management Letter for the Transportation Security Administration 

                   Component of the FY 2011 DHS Financial Statement Audit

                                 Department of Homeland Security

                              Transportation Security Administration

                             Information Technology Management Letter
                                        September 30, 2011

                            OBJECTIVE, SCOPE, AND APPROACH

In connection with our engagement to audit DHS’ balance sheet as of September 30, 2011, and the related
statement of custodial activity for the year then ended, we performed an evaluation of general information
technology controls (GITC) at TSA, to assist in planning and performing our audit. The U.S. Coast
Guard’s (Coast Guard) Finance Center (FINCEN) hosts key financial applications for TSA. As such, our
audit procedures over GITC for TSA included testing of the Coast Guard’s FINCEN policies, procedures,
and practices, as well as TSA policies, procedures and practices at TSA Headquarters. The Federal
Information System Controls Audit Manual (FISCAM), issued by the GAO, formed the basis of our GITC
evaluation procedures. The scope of the GITC evaluation is further described in Appendix A.

The FISCAM was designed to inform financial auditors about IT controls and related audit concerns to
assist them in planning their audit work and to integrate the work of auditors with other aspects of the
financial audit. FISCAM also provides guidance to IT auditors when considering the scope and extent of
review that generally should be performed when evaluating general controls and the IT environment of a
federal agency. FISCAM defines the following five control functions to be essential to the effective
operation of the general IT controls environment.

•	 Security Management (SM) – Controls that provide a framework and continuing cycle of activity for
   managing risk, developing security policies, assigning responsibilities, and monitoring the adequacy
   of computer-related security controls.

•	 Access Control (AC) – Controls that limit and/or monitor access to computer resources (data,
   programs, equipment, and facilities) to protect against unauthorized modification, loss, and disclosure.

•	 Configuration Management (CM) – Controls that help to prevent the implementation of unauthorized
   programs or modifications to existing programs.

•	 Segregation of Duties (SD) – Controls that constitute policies, procedures, and an organizational
   structure to prevent one individual from controlling key aspects of computer-related operations, thus
   deterring unauthorized actions or access to assets or records.

•	 Contingency Planning (CP) – Controls that involve procedures for continuing critical operations
   without interruption, or with prompt resumption, when unexpected events occur.

To complement our general IT controls audit, we also performed technical security testing for key
network and system devices. The technical security testing was performed both over the Internet and
from within select Coast Guard facilities, and focused on test, development, and production devices that
directly support TSA’s financial processing and key general support systems.

In addition to GITC testing, application controls were tested for the year ending September 30, 2011,
which were identified as key controls by the financial audit team.




   Information Technology Management Letter for the Transportation Security Administration 

                  Component of the FY 2011 DHS Financial Statement Audit

                                          Page 1

                                 Department of Homeland Security

                              Transportation Security Administration

                             Information Technology Management Letter
                                        September 30, 2011

                  SUMMARY OF FINDINGS AND RECOMMENDATIONS

During FY 2011, TSA took corrective action to address prior year IT control deficiencies. For example,
TSA made improvements in its own policies and procedures over its recertification of the user accounts
process. During FY 2011, we continued to identify IT general control deficiencies that impact TSA’s
financial data. The key issue from a financial statement audit perspective related to controls over the
development, implementation, and tracking of scripts at Coast Guard’s FINCEN. Collectively, these
deficiencies negatively impacted the internal controls over TSA’s financial reporting and its operation,
and we consider them to contribute to a material weakness at the Department level under standards
established by the American Institute of Certified Public Accountants. In addition, based upon the results
of our test work, we noted that TSA did not fully comply with the Department’s requirements of the
Federal Financial Management Improvement Act (FFMIA).
Of the six findings issued during our TSA FY 2011 testing, four were repeat findings, and two were new
IT findings. These findings represent deficiencies in three of the five FISCAM key control areas.
Specifically the deficiencies were: 1) unverified access controls through the lack of comprehensive user
access privilege re-certifications, 2) access control issues involving password complexity settings, 3) use
of generic ‘admin’ user id and password, 4) security management issues involving the new employee
process, and 5) physical security and security awareness issues.
In addition, we determined that the following deficiencies identified at the Coast Guard IT environment
also impact TSA financial data: 1) inadequately designed and operating IT script change control policies
and procedures, 2) security management issues involving civilian and contractor background
investigations, 3) lack of consistent contractor, civilian, and military system account termination
notification processes, 4) physical security and security awareness issues, and 5) procedures for role-
based training for individuals with elevated responsibilities is not fully implemented. We also
considered the effects of financial systems functionality when testing internal controls since key Coast
Guard financial systems that house TSA financial data are not compliant with FFMIA and are no longer
supported by the original software provider. Financial system functionality limitations add to the
challenge of addressing systemic internal control deficiencies, and strengthening the control environment
at FINCEN.
These deficiencies may increase the risk that the confidentiality, integrity, and availability of system
controls and TSA financial data could be exploited thereby compromising the integrity of financial data
used by management and reported in TSA’s financial statements.
While the recommendations made by us should be considered by TSA, it is the ultimate responsibility of
TSA management to determine the most appropriate method(s) for addressing the deficiencies identified
based on their system capabilities and available resources.




   Information Technology Management Letter for the Transportation Security Administration 

                  Component of the FY 2011 DHS Financial Statement Audit

                                          Page 2

                                  Department of Homeland Security

                               Transportation Security Administration

                              Information Technology Management Letter
                                         September 30, 2011

            GENERAL IT CONTROL FINDINGS AND RECOMMENDATIONS

Findings:
During the FY 2011 DHS Financial Statement Audit, we identified the following TSA IT and financial
system control deficiencies that in the aggregate are considered management letter comments. Our
findings are divided into two groupings: 1) financial systems controls, and 2) IT system functionality.
Related to IT Controls:
Configuration Management
The Coast Guard’s core financial system configuration management process controls are not operating
effectively, and continue to present risks to TSA financial data confidentiality, integrity, and availability.
Financial data in the general ledger may be compromised by automated and manual changes that are not
adequately controlled. For example, the Coast Guard uses an IT scripting process to make updates, as
necessary, to its core general ledger software to process financial data. We noted that some previously
noted weaknesses were remediated, while other control deficiencies continued to exist. The remaining
control deficiencies that were present throughout FY 2011 vary in significance; however four key areas
that impact the Coast Guard Script control environment are: 1) Script Testing Requirements, 2) Script
Audit Logging, 3) Script Approvals and Recertifications, and 4) Script Record Documentation Review.
•	 Script Testing Requirements: There are no detailed requirements over the review and testing of
   functional changes to the data including functional test plans.
•	 Script Audit Logging: Controls over audit logs in the production databases are not consistently
   implemented to log privilege user actions and scripts run. A review was implemented in May 2011 to
   reconcile between the scripts run in the production databases and the changes made to the database
   tables. However, this review only occurred one day a month which only consisted of 5% of scripts
   run a month.
•	 Script Approvals and Recertifications: Dimensions (automates the process for executing scripts into
   the CAS suite database) users were not being reviewed and Mashups listings were not completed as
   they did not include the script runners and system administrators for Dimensions. Additionally,
   documentation retained in support of the reviews was not adequately completed per FINCEN policy
   throughout the year.
•	 Script Record Documentation Review: Fields in the Mashups tool (automated approval workflow
   which enforces rules defined in the system from approvals and will retain all the records within the
   online database for audit purposes) are not always accurately recorded and no final review is
   performed to ensure that they are accurate. Additionally, there are certain fields that should reconcile,
   and any discrepancies are not always consistently documented and explained.

In addition, we noted weaknesses in the script change management process at the USCG as it relates to
the Internal Control over Financial Reporting process (e.g., the financial statement impact of the changes
to FINCEN core accounting system through the script change management process).
Access Control
•	 Access review procedures for key financial applications do not include the review of all user accounts
   to ensure that all terminated individuals no longer have active accounts; inactive accounts are locked;
   and privileges associated with each individual are still authorized and necessary.


   Information Technology Management Letter for the Transportation Security Administration 

                  Component of the FY 2011 DHS Financial Statement Audit

                                          Page 3

                                  Department of Homeland Security

                               Transportation Security Administration

                              Information Technology Management Letter
                                         September 30, 2011

•	 Password settings for one key financial application were not configured to enforce DHS/CG
   password length or complexity.
•	 Administrative access to one key financial application is granted to members of the Database
   Administration (DBA) team through the use of a generic user ID and shared password.
Security Management
•	 The computer access agreement for TSA employees is not being completed; and
•	 During our after-hours physical security and social engineering testing we identified exceptions in the
   protection of sensitive user account information. The tables below detail the exceptions identified at
   the locations tested.

After-Hours Physical Security Testing:

We performed after-hours physical security testing to identify risks related to non-technical aspects of IT
security. These non-technical IT security aspects include physical access to media and equipment that
houses financial data and information residing on a TSA employee’s / contractor’s desk, which could be
used by others to gain unauthorized access to systems housing financial information. The testing was
performed at TSA Headquarters.


                 Exceptions Noted                               Total Exceptions at TSA
                                                                      HQ by Type
                 Unsecured Laptop                                          4
                 PII                                                       3
                 DHS/TSA Badge                                             1
                 Keys that unlocked laptops                                2
                 Total Exceptions at TSA HQ                               10


Social Engineering Testing:
Social engineering is defined as the act of attempting to manipulate or deceive individuals into taking
action that is inconsistent with DHS policies, such as divulging sensitive information or allowing /
enabling computer system access. The term typically applies to trickery or deception for the purpose of
information gathering, or gaining computer system access.


          Total           Total Answered          Number of employees who provided
          Called                                     their user ID and password

            40                   20                                  4




   Information Technology Management Letter for the Transportation Security Administration 

                  Component of the FY 2011 DHS Financial Statement Audit

                                          Page 4

                                 Department of Homeland Security

                              Transportation Security Administration

                             Information Technology Management Letter
                                        September 30, 2011


Related to Financial System Functionality:
We noted that financial system functionality limitations are contributing to control deficiencies reported
elsewhere in Exhibit I in the Independent Auditor’s Report, dated November 11, 2011, and inhibiting
progress on corrective actions impacting TSA. These functionality limitations are preventing the TSA
from improving the efficiency and reliability of its financial reporting processes. Some of the financial
system limitations lead to extensive manual and redundant procedures to process transactions, verify
accuracy of data, and to prepare financial statements. Systemic conditions related to financial system
functionality include:
•	 As noted above, Coast Guard’s core financial system configuration management process is not
   operating effectively due to inadequate controls over the IT script process. The IT script process was
   instituted as a solution primarily to compensate for system functionality and data quality issues;

•	 For one financial system that was configured by the vendor, Coast Guard and TSA do not have the
   ability to modify the vendor established password settings;
•	 Production versions of operational financial systems are outdated, no longer supported by the vendor,
   and do not provide the necessary core functional capabilities (e.g., general ledger capabilities); and
•	 Issues with current technology are preventing TSA management from reviewing account
   recertification reports timely.

Recommendations: We recommend that TSA:
•	 Work with the DHS Chief Financial Officer (CFO), DHS Chief Information Officer (CIO), and the
   Coast Guard CFO and CIO to ensure the following planned corrective actions take place in a timely
   manner:
      Continue to update the procedures, tools, and associated training to better address script record
      documentation reviews and provide training to impacted staff.
      Continue to improve and better document the script audit logging processes and associated
      technical implementations in compliance with Coast Guard software development lifecycle
      (SDLC) and CM policies and procedures.
      Continue to improve and better document script approvals; define and implement script
      management and execution tool user access/account recertification procedures; and update
      associated training and provide that training to impacted staff.
      Continue to improve and better document script testing requirements and associated technical
      implementations and test environments in compliance with Coast Guard SDLC and CM policies
      and procedures.
      Continue to improve the script change management process and other associated internal controls
      as these relate to the financial statement impact of the changes to the Core Accounting System
      (CAS) Suite financial databases.
    	 Continue to implement policy regarding approval of scripts that impact financial statements.

•	 Office of Property Management Systems should closely monitor and follow-up with Deputy Property
   management Officials to ensure requests are implemented timely for Sunflower.

•	 As part of the ongoing efforts to strengthen internal controls over access to TSA financial systems, in
   the second quarter of FY 2011, the Financial Systems Branch added an additional level of quality


   Information Technology Management Letter for the Transportation Security Administration 

                  Component of the FY 2011 DHS Financial Statement Audit

                                          Page 5

                                 Department of Homeland Security

                              Transportation Security Administration

                             Information Technology Management Letter
                                        September 30, 2011

   assurance (QA) review to the quarter review process. The QA step will help minimize human errors
   in regards to Markview.

•	 Monitor FINCEN on the status of the Markview developer to incorporate the ability to provide for
   stronger password controls in the Markview system as required by the DHS Sensitivity System Policy
   Directive 4300A.
       By early September 2011, the Markview developer should complete an analysis of the level of
       effort involved to update the product to be in compliance with IT security requirements, i.e.,
       password to be 8 characters in length; contain a combination of alpha, numeric, and special
       characters; not be the same as previous 8 password; stored in the encrypted form; account locked
       after 3 failed login attempts; initial login prompts users to change initial password; and passwords
       changed every 90 days.
       TSA should work with FINCEN to develop a schedule to test and implement these changes after
       the vendor has delivered the new version that incorporates the compliant password controls.

•	 Implement an automated e mail notification process so that all new Markview users are reminded of
   the requirements of adhering to strong password controls as identified in the DHS 4300A Sensitivity
   Policy.

•	 Establish a procedure to change the ADMIN password every 90 days as required by the DHS
   Sensitivity System Policy Directive 4300A. This will minimize the risk of unauthorized access to the
   Markview system.

•	 Implement a unique user id and password for all DBAs as required by the DHS Sensitivity System
   Policy Directive 4300A. Establishing a unique user account that will create accountability and system
   changes will be easily identifiable and traced to an individual DBA.

•	 Convert the manual process of keeping hardcopies of the computer access agreement (CAA) to an
   electronic and computer-based process where employees will be instructed to review the CAA online
   via TSA’s Online Learning Center.

•	 Update the policy on the CAA to coincide with this process, so that temporary access to a TSA
   computer is permitted, making completing the CAA online possible, ensuring compliance with policy
   and ease of reviewing and maintaining this form.

•	 Continue to execute the IT Security Awareness Training Program.

•	 Conduct internal physical security walkthroughs on a semi-annual basis.

•	 Conduct internal social engineering testing on a quarterly basis.

•	 Conduct a one-on-one training with individuals failing physical security after-hours testing and social
   engineering attempts.

•	 Take administrative actions, if needed, on a case-by-case basis.

•	 Conduct a communications campaign to address the effects of improper handling of physical security,
   and

•	 Conduct a communications campaign via broadcasts warning against social engineering.
   Information Technology Management Letter for the Transportation Security Administration 

                  Component of the FY 2011 DHS Financial Statement Audit

                                          Page 6

                                Department of Homeland Security

                             Transportation Security Administration

                            Information Technology Management Letter
                                       September 30, 2011




                                  APPLICATION CONTROLS

Application controls were tested for the year ending September 30, 2011, and we found no issues.




   Information Technology Management Letter for the Transportation Security Administration 

                  Component of the FY 2011 DHS Financial Statement Audit

                                          Page 7

                                                                                     Appendix A
                               Department of Homeland Security

                            Transportation Security Administration

                           Information Technology Management Letter
                                      September 30, 2011




                                        Appendix A

 Description of Key TSA Financial Systems within the Scope of the FY
                 2011 DHS Financial Statement Audit




Information Technology Management Letter for the Transportation Security Administration Component
                          of the FY 2011 DHS Financial Statement Audit
                                             Page 8
                                                                                                   Appendix A
                                    Department of Homeland Security

                                 Transportation Security Administration

                                Information Technology Management Letter
                                           September 30, 2011



Below is a high-level description of significant financial management systems included in the scope of the
engagement to perform the financial statement audit.

Core Accounting System (CAS)
CAS is the core accounting system that records financial transactions and generates financial statements for the
United States Coast Guard. CAS is hosted at the Coast Guard’s FINCEN in Virginia, (VA) and is managed by
the United States Coast Guard. The FINCEN is the Coast Guard’s primary financial system data center. CAS
interfaces with other systems located at the FINCEN, including Financial and Procurement Desktop (FPD).
Financial Procurement Desktop (FPD)
The FPD application is used to create and post obligations to the core accounting system. It allows users to
enter funding, create purchase requests, issue procurement documents, perform system administration
responsibilities, and reconcile weekly program element status reports. FPD is interconnected with the CAS
system and is hosted at the FINCEN in VA and is and managed by the United States Coast Guard.
Sunflower
Sunflower is a customized third party commercial off the shelf product used for TSA and Federal Air Marshals
property management. Sunflower interacts directly with the Office of Finance Fixed Assets module in CAS.
Additionally, Sunflower is interconnected to the FPD system and is hosted at the FINCEN in VA and is
managed by the United States Coast Guard.
MarkView
MarkView is imaging and workflow software used to manage invoices in CAS. Each invoice is stored
electronically and associated to a business transaction so that users are able to see the image of the invoice.
MarkView is interconnected with the CAS system and is located at the FINCEN in VA and is managed by the
United States Coast Guard.




Information Technology Management Letter for the Transportation Security Administration Component
                          of the FY 2011 DHS Financial Statement Audit
                                             Page 9
                                                                                     Appendix B
                               Department of Homeland Security

                            Transportation Security Administration

                           Information Technology Management Letter
                                      September 30, 2011




                                        Appendix B


      FY 2011 Notices of IT Findings and Recommendations at TSA





Information Technology Management Letter for the Transportation Security Administration Component
                          of the FY 2011 DHS Financial Statement Audit
                                             Page 10
                                                                                                    Appendix B
                                      Department of Homeland Security

                                   Transportation Security Administration

                                  Information Technology Management Letter
                                             September 30, 2011


Notice of Findings and Recommendations – Definition of Severity Ratings:

Each NFR listed in Appendix B is assigned a severity rating from 1 to 3 indicating the influence on the DHS
Consolidated Independent Auditors Report.

          1 – Not substantial 

          2 – Less significant

          3 – More significant


The severity ratings indicate the degree to which the deficiency influenced the determination of severity for
consolidated reporting purposes.

These rating are provided only to assist the DHS in prioritizing the development of its corrective action plans for
remediation of the deficiency.




Information Technology Management Letter for the Transportation Security Administration Component
                          of the FY 2011 DHS Financial Statement Audit
                                             Page 11
                                                                                                                        Appendix B
                                                            Department of Homeland Security
                                                         Transportation Security Administration
                                                        Information Technology Management Letter
                                                                   September 30, 2011




FY 2011 NFR #                           NFR Title                             FISCAM Control Area       2011 Severity   New Issue    Repeat Issue
                                                                                                           Rating
TSA-IT-11-01    Markview – Password Settings                                     Access Controls              2            X
TSA-IT-11-02    Markview – Administrator Account                                 Access Controls             2             X
                Physical Security and Security Awareness Issues Identified       Access Controls
TSA-IT-11-03                                                                                                 1                            X
                during Enhanced Security Testing
TSA-IT-11-04    TSA Computer Access Agreement Process                            Access Controls             1                            X
TSA-IT-11-05    Sunflower and Markview User Account Recertifications             Access Controls             2                            X
                Configuration Management Controls Over the Coast Guard       Configuration Management
TSA-IT-11-06                                                                                                 2                            X
                Scripting Process




            Information Technology Management Letter for the Transportation Security Administration Component of the FY 2011 DHS 

                                                          Financial Statement Audit

                                                                   Page 12

                                                                               Appendix C
                           Department of Homeland Security

                        Transportation Security Administration

                       Information Technology Management Letter
                                  September 30, 2011




                                   APPENDIX C

 Status of Prior Year Notices of Findings and Recommendations 

                       and Comparison to

 Current Year Notices of Findings and Recommendations at TSA





Information Technology Management Letter for the Transportation Security Administration

                 Component of the FY 2011 DHS Financial Statement Audit

                                        Page 13

                                                                                     Appendix C
                            Department of Homeland Security
                         Transportation Security Administration
                        Information Technology Management Letter
                                   September 30, 2011


                                                                                Disposition
   NFR #                                Description                         Closed       Repeat

               Physical Security and Security Awareness Issues Identified
TSA-IT-10-01                                                                                  X
               during Enhanced Security Testing
TSA-IT-10-02   CAS, FPD, and Sunflower Access Recertifications                                X
TSA-IT-10-03   TSA Computer Access Agreement Process                                          X
               Configuration Management Controls Over the Coast Guard
TSA-IT-10-04                                                                                  X
               Scripting Process




Information Technology Management Letter for the Transportation Security Administration

                 Component of the FY 2011 DHS Financial Statement Audit

                                        Page 14

                                                                              Appendix D
                          Department of Homeland Security

                        Transportation Security Administration

                   Information Technology Management Letter
                                  September 30, 2011



                 Report Distribution

                 Department of Homeland Security

                 Secretary
                 Deputy Secretary
                 General Counsel
                 Chief of Staff
                 Deputy Chief of Staff
                 Executive Secretariat
                 Under Secretary, Management
                 Administrator, TSA
                 DHS Chief Information Officer
                 DHS Chief Financial Officer
                 Chief Financial Officer, TSA
                 Chief Information Officer, TSA
                 Chief Information Security Officer
                 Assistant Secretary for Policy
                 Assistant Secretary for Public Affairs
                 Assistant Secretary for Legislative Affairs
                 DHS GAO/OIG Audit Liaison
                 Chief Information Officer, Audit Liaison
                 TSA Audit Liaison

                 Office of Management and Budget

                 Chief, Homeland Security Branch
                 DHS OIG Budget Examiner

                 Congress

                 Congressional Oversight and Appropriations Committees as
                 appropriate




Information Technology Management Letter for the Transportation Security Administration

                 Component of the FY 2011 DHS Financial Statement Audit

                                        Page 15

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
